AUDIT OF INFORMATION SECURITY
           PROGRAM
     Department of Transportation

     Report Number: FI–2009–003
     Date Issued: October 8, 2008
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Information Security                     Date:    October 8, 2008
           Program, Department of Transportation,
           Report Number: FI-2009-003

  From:    Calvin L. Scovel III                                   Reply to
                                                                  Attn. of:   JA–20
           Inspector General

    To:    Chief Information Officer

           This report presents the results of our annual audit of the Department of
           Transportation’s (DOT) information security program and practices, as required
           by the Federal Information Security Management Act of 2002 (FISMA). FISMA
           further requires that our evaluation include testing of a representative subset of
           systems and an assessment, based on our testing, of the Department’s compliance
           with FISMA and applicable requirements. On July 14, 2008, the Office of
           Management and Budget (OMB) issued M-08-21, Reporting Instructions for the
           Federal Information Security Management Act and Agency Privacy Management,
           which provides instructions for inspectors general to use in completing this year’s
           FISMA evaluation, including the OMB template.

           Consistent with FISMA and OMB requirements, our audit objective was to
           determine the effectiveness of DOT’s information security program and practices.
           Specifically, we assessed the status of DOT’s (1) implementation of minimum
           security standards, including progress in addressing issues identified previously in
           risk categorization and managing corrective actions; (2) configuration
           management, including deployment of baseline configurations and addressing
           telecommuting issues; (3) incident-handling and reporting; and (4) renewed
           initiatives in addressing Air Traffic Control system security weaknesses, including
           business continuity planning and testing of operational systems security outside of
           the computer laboratory.

           As instructed, we tested a representative subset of the Department’s systems, and
           included the results in OMB’s required template (see Exhibit A and Table 7 in
           Exhibit B). Our testing included interviews with key information security
           personnel, reviews of technical documentation, and analysis of the Department’s
           reported information security statistics. We conducted our audit in accordance
           with generally accepted government auditing standards. Those standards require
                                                                                  2


that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. Details of our scope
and methodology are described in Exhibit B.


INTRODUCTION

FISMA requires Federal agencies to identify and provide security protection
commensurate with the risk and magnitude of harm resulting from the loss of,
misuse of, unauthorized access to, disclosure of, disruption to, or modification of
information collected or maintained by or on behalf of an agency. FISMA and its
predecessor, the Government Information Security Reform Act (GISRA), required
the inspectors general to evaluate agencies’ information security programs and
practices.

The Department has 13 Operating Administrations that, for Fiscal Year (FY)
2008, reported a total of 425 information systems, of which 62 percent belong to
the Federal Aviation Administration (FAA). Among the systems the Department
maintains and operates is the air traffic control system, which the President has
designated as part of the critical national infrastructure. Other systems owned by
the Department include safety-sensitive surface transportation systems and
financial systems that are used to manage and disburse over $50 billion in Federal
funds each year. In FY 2008, the departmental IT budget totaled about $2.8
billion. Systems inventory counts for FY 2007 and FY 2008 for each Operating
Administration are detailed in Exhibit C.


RESULTS IN BRIEF
The Department’s information security program and practices are not effective.
As a result, the Department is not in compliance with FISMA and OMB
requirements for security information systems and providing privacy protection of
personally identifiable information (PII). Last year we reported that the overall
effectiveness of DOT’s information security program declined because
management had to divert resources and attention to resolving Headquarters
move-related issues. 1 While we observed some operational improvements, we
nonetheless continued to see a decline in the Department’s program and practices.
(See the comparison between these 2 years in Exhibit D). As noted in Exhibit E,
our prior year’s information security-related recommendations have not been fully
implemented.


1
    DOT Information Security Program, OIG Report FI-2008-001, October 10, 2007.
                                                                               3


Developing a robust information security program, including implementation of
our current and prior years’ recommendations, requires (1) the Chief Information
Officer (CIO) Office to effectively oversee Operating Administrations’
implementation of departmental policies/guidance, and (2) stability in the Office
of the Chief Information Security Officer (CISO). However, when compared with
some of his counterparts in other Federal agencies and other appointed officials
within the Department, the DOT CIO has limited influence on Operating
Administrations. Unless there are management or budgeting consequences,
Operating Administrations are likely to continue the practice of not effectively
implementing departmental policies/guidance. We are making a recommendation
to increase Operating Administrations’ accountability. During FY 2008, the
Department’s performance was also hindered by significant turnover in the Office
of the CISO.

For FY 2008, we found:

    1. The Department has not established adequate policies or procedures to
       implement and maintain an effective Departmentwide information security
       program or to address key OMB privacy requirements. Specifically, the
       Department has a backlog of information-security policy awaiting
       publication and has not addressed key privacy requirements. For example,
       OMB mandated that—by September 22, 2007—agencies develop and
       implement a “breach-notification policy” and a plan to reduce the use of
       Social Security numbers. This has not happened at DOT. Without this
       policy, the Department cannot effectively direct or ensure that citizens
       whose private information is compromised are properly notified. We also
       found that the Department has not established a FISMA data collection
       cut-off date, as requested by OMB. Without a cut-off date, the
       Department does not have sufficient time to perform meaningful internal
       review or assess the results submitted to it by the Operating
       Administrations.

    2. The Department was not adequately protecting its computer networks.
       Specifically, it was not effectively managing the configuration of the
       commercial software installed on departmental computers. Further, it has
       not fully developed sufficient security incident-monitoring and -reporting
       capabilities to protect the networks from intrusion. To reduce system
       vulnerabilities, both OMB and the Department require that commercial
       software, such as the Windows operating system and Oracle database
       system, be installed in accordance with specific Government security
       configuration standards. We have reported a lack of progress in this
       critical area since FY 2006. Last year, the Department reported that less
       than 50 percent of departmental computers were in compliance with
       configuration standards. This year, however, the Department was not able
                                                                            4


   to track Operating Administration compliance rates. Meanwhile, our
   testing continued to find computers without proper configuration, resulting
   in unnecessary vulnerabilities to departmental networks.

    During FY 2008, the Department established a consolidated Cyber
    Security Management Center (CSMC) and a common framework for
    Departmentwide incident-monitoring and -reporting. This not only
    improved visibility of Headquarters networks for security monitoring, but
    also better positioned the Department to combat increasing cyber security
    threats. However, DOT’s ability to respond to computer security
    incidents remained hindered by insufficient intrusion-detection of field
    networks and late reporting of incidents involving the potential
    compromise of PII.

3. The Department was not ensuring that all of its employees and contractors
   receive the appropriate degree of computer-security training needed to
   prevent them from contributing to security weaknesses and breaches. In
   particular, the Department was unable to effectively track contractors who
   needed security-awareness or other specialized security training. In
   addition, the Department did not address collaborative Web technologies
   in its security-awareness training, as required by OMB.

4. The Department was not identifying all information-security weaknesses
   or ensuring the timely resolution and prioritization of those that are
   identified. The Department is required to track and manage information
   security weaknesses in plans of actions and milestones (POA&M). We
   continued to find information-security weaknesses that were identified but
   not included in POA&Ms. Of the weaknesses that were identified and
   tracked in the Department’s POA&M system, many of the high and
   moderate weaknesses were not remediated in a timely manner, resulting in
   unnecessary vulnerabilities in the Department’s systems. For example, we
   found that remediation of unencrypted laptops containing PII was past due
   for more than a year. We also found many for which the priority level had
   not been assigned, and the cost of completing the remedial actions had not
   been estimated for more than half of the security weaknesses in the
   POA&M database. Without cost estimates and adequate prioritization, the
   Department cannot effectively and efficiently resolve information security
   weaknesses.

5. The Department was not sufficiently protecting its systems or ensuring
   that they can be recovered when necessary. The Department has not
   adequately identified all systems that provide services to citizens via the
   Internet and therefore are subject to OMB e-authentication requirements,
   and it is not validating that those requirements have been met for the
                                                                                                                           5


             e-authentication systems it has identified. E-authentication provides
             assurance to each citizen that the Department is protecting private
             information by ensuring that only the citizen can access the account. In
             addition, we noted that 8 of 16 sampled systems did not have certifications
             and accreditations (C&A) that complied with National Institute of
             Standards and Technology (NIST) standards. Further, 20 of the Federal
             Highway Administration’s (FHWA) 26 systems had not been recertified
             and were operating without accreditation, including two high-impact
             systems whose certifications and accreditations expired in November
             2007. Finally, the Department is not adequately testing all of its system
             contingency plans and therefore cannot ensure that such plans will enable
             the recovery of essential systems in the event of disruption.

Last year, we reported that the Department needed to better secure network
connections to allow employees to telecommute without creating additional
vulnerabilities when connecting unsecure home computers to Department
networks. According to management, the Department is currently using
specialized software to check for basic security controls in employee home
computers, such as firewalls and anti-virus software, before granting network
connections. While this does mitigate some of the risks, these security checks are
not sufficient because they do not determine whether employee home computers
contain any malicious software that could compromise the Department’s networks
or systems. Consistent with our prior year’s recommendation, we encourage
departmental officials to continue exploring alternatives to support telecommuting
initiatives while protecting departmental networks. Because these issues were
previously reported, we are not including additional details in this report. 2

During FY 2008, as part of its renewed initiatives in addressing air traffic control
systems security—part of the Nation’s critical infrastructure—FAA made progress
in implementing a business continuity plan for air traffic control en route centers. 3
However, its ability to handle long-term service disruptions remains unknown
because of unresolved operational issues. FAA has also expanded security
evaluations of air traffic control systems outside of the computer laboratory. Yet
FAA’s methodology for evaluating systems security, including risk categorization,
is not adequate to ensure that operational systems are properly protected. These
concerns will be the subject of a separate report. Consequently, details related to
these issues are not included in this report.

We are making a series of recommendations, beginning on page 19, to help the
Department improve its information security and privacy programs. A draft of

2
    We reported our concerns with allowing telecommuting employees to connect with the Department’s networks using
    home computers on page 17 of DOT Information Security Program, OIG Report FI-2008-001, October 10, 2007.
3
    En route centers are responsible for directing high-altitude traffic and disseminating flight information to all other air
    traffic control facilities.
                                                                                    6


this report was provided to the Department’s CIO on September 30, 2008. On
October 7, 2008, we received the CIO’s response, which can be found in its
entirety in the Appendix.         The CIO concurred with our findings and
recommendations and in 30 days will provide written comments describing the
actions and milestones that will be taken to implement the recommendations.


FINDINGS

Policies and Procedures Were Inadequate To Ensure Information
Security and Privacy

The Department had not developed adequate policies or procedures to establish
and maintain an effective Departmentwide information security program or to
address key OMB privacy requirements.                 We believe the absence of
comprehensive policies and procedures is contributing to the continuing decline in
the effectiveness of the Department’s information security program and practices.
Further, the Department’s lack of a cut-off date for its FISMA reporting has
inhibited its ability to oversee its information security program.

Large Backlog of Information Security Policies Awaited Publication

FISMA requires the Department to develop an information security program that
includes policies and procedures that are based on the risk assessments to cost-
effectively reduce information security risks to an acceptable level and to ensure
that information security is addressed throughout the life cycle of each agency
information system. The Department's CIO Office had a large backlog of draft
information technology security policy in development. The Department
identified 52 topics that require IT security policy. To date, it has issued policy on
only 11 (21 percent). The other 41 topics remain unaddressed or have policy
under development or in draft form (see Table 1). A few examples of key
policies that are unaddressed or otherwise not final include policies that address
configuration management, risk-level categorization, backup and contingency
planning, intrusion detection, access control, passwords, wireless networking,
remote access, risk assessment, and security planning.
                                                                                                   7


            Table 1. Status of DOT Information Security Policies

                                  Policy Status             Number
                                  Final                         11
                                  Draft                         14
                                  Under
                                  Development                     19
                                  Unaddressed                      8
                                    Total                         52
                                   Source: OIG analysis

Without adequate and comprehensive information technology security policies,
the Department cannot establish or maintain an effective information security
program, which includes (1) providing direction to the Operating Administrations,
its employees, or its contractors on information security; (2) enforcing compliance
with key information security requirements; and (3) ensuring that security risks are
reduced in a cost-effective and consistent manner. We further believe that the
absence of key policies is contributing to the Department’s weaknesses in securing
its networks, protecting its systems, providing security training, and resolving
other information technology issues. These matters are further described below.

Key Privacy Requirements Have Not Been Addressed

OMB M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information, required agencies to (1) develop and
implement a "breach notification policy" by September 22, 2007; (2) review
current holdings of all personally identifiable information and ensure, to the
maximum extent practicable, that such holdings are accurate, relevant, timely, and
complete, and reduce them to the minimum necessary for the proper performance
of a documented agency function; (3) develop a plan by September 22, 2007, to
reduce the use of Social Security numbers by November 22, 2009; and (4)
implement a “rules and consequences policy” outlining the rules of behavior and
identifying consequences and corrective actions available for failure to follow
these rules.

The breach notification policy is still in draft form and, according to the DOT
Privacy Officer, is still undergoing revision. This policy is now over a year
overdue. In addition, the Department has still not developed a “rules and
consequences” policy. According to our most recent privacy report, 4 the agency
has not completed its reviews to determine if all systems containing PII have been


4
    Review of DOT Privacy Policies and Procedures, OIG Report Number FI-2008-077, September 9, 2008.
                                                                               8


identified. Specifically, the Privacy Office could not provide assurance that 320
systems do not contain PII.

The Department’s plan to reduce Social Security numbers likewise remains in
draft form and is also over a year late. This plan, which is part of the
Department’s M-07-16 DRAFT Action Plan, is extremely high level and is
missing goals, specific tasks, interim milestones, and assignment of
responsibilities. In addition, the plan has not been implemented and it is
increasingly unlikely that the Department will meet OMB’s November 22, 2009,
deadline for completing the reduction of the use of Social Security numbers. The
following table encompasses the Department’s entire draft plan to eliminate
unnecessary use of Social Security numbers:

         Table 2. DOT Draft Plan to Eliminate Unnecessary
                  Use of Social Security Numbers

                         Tasks                            Actions
           Review and eliminate unnecessary      x   Arrange meeting
           use of SSNs                               with HR,
                                                     Security, OGC
                                                     (Stand-up SSN
           Develop plan, within 18 months, to        Elimination Task
           eliminate unnecessary collection          Force).
           and use of SSNs                       x   Initial review
                                                     performed for
                                                     OMB in Dec 2006.
           Explore alternatives to use of SSNs   x   Draft/send email to
           as a personal identifier                  OA Privacy
                                                     Officers about
                                                     need to update
                                                     this review and
                                                     ask for their plans
                                                     to do so.
                                                 x   Collect and
                                                     analyze responses
                                                     from the PII
                                                     System Owner
                                                     Survey.
                                                 x   Draft DOT wide
                                                     plan for
                                                     submission to
                                                     OMB.
                                                 x   Participate in
                                                     Governmentwide
                                                     efforts to explore
                                                     alternatives.


             Source: DOT
                                                                                   9


Without implementing these key privacy requirements, the Department cannot
(1) ensure that all PII is properly identified and protected, (2) minimize the risk
that Social Security numbers will be exposed to parties who do not have a
legitimate need to know or possess them, (3) ensure that affected citizens are
adequately notified in a timely manner when affected by breaches of personally
identifiable or other sensitive information, or (4) implement consequences for
employees who willfully or otherwise break privacy rules. Consequently, the
Department may unwillingly contribute to problems with identity theft, law
enforcement, or even national security.

FISMA Data-Collection Cut-Off Date Has Not Been Established

In M-08-21, Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, OMB requests that agencies
set an internal cut-off date for FISMA data collection and report preparation. This
cut-off date should permit adequate time for meaningful internal review and
comment and resolution of any disputes before finalizing the agency’s report to
OMB. We found, however, that DOT’s Office of the CIO (OCIO) has not set a
Departmentwide FISMA cut-off date. Instead, the OCIO allows updates to the
information to occur right up to the FISMA deadline. (Note: OIG used a cut-off
date of August 31, 2008, to allow for the timely completion of its audit on DOT's
information security program and practices.)

Without an adequate internal Departmentwide cut-off date, the Department does
not have sufficient time to perform meaningful internal review or assess the results
submitted to it by the Operating Administrations. Because OIG uses a cut-off date
and the Department does not, there will be timing differences between OIG's and
the OCIO's respective FISMA reports. In addition, some information may not be
provided to OIG in a timely manner for inclusion in its report. Further, this results
in limited time for the Department and OIG to resolve disputes or differences in
their respective reports, and for the Department to develop a timely corrective
action plan that OIG can review prior to issuing its FISMA audit report.


DOT Networks Were Not Adequately Protected From Intrusion

Last year we reported that deficiencies were evident in network computers’
configurations, and that reporting of security incidents was incomplete and
inaccurate. For FY 2008, the Department did not effectively manage baseline
system configurations or track compliance with configuration standards, did not
sufficiently deploy Federal Desktop Core Configuration (FDCC) requirements,
and deployed software that was not properly configured. In addition, the
Department’s capability to respond to computer security incidents is hindered due
                                                                                10


to the low visibility of field networks and untimely reporting of certain incidents
pertaining to PII.

Baseline Configuration Standards Have Not Been Fully Implemented

To reduce the risk of hostile attacks based on known vulnerabilities in commercial
off-the-shelf software, such as the Windows Operating and Oracle Database
systems, agencies are required to configure such commercial software in
accordance with NIST or agency security standards. Last year, DOT centrally
tracked Operating Administrations’ implementation of departmental baseline
configuration standards, which enabled DOT to report that 29 percent of
its systems conformed to these standards. However, this year DOT had no such
tracking     capability,   and      was    not    able   to    share      Operating
Administrations’ compliance status with OIG. According to OCIO officials, DOT
began the transition to the Cyber Security Assessment and Management tool
(CSAM) as its authoritative FISMA reporting system during FY 2008. It also
asked Operating Administrations to input their compliance status into CSAM.
However, the required information was missing from CSAM. In addition, last
year we reported that DOT issued a draft policy on configuration management.
This policy was still marked as “under development” in September 2008.

OMB M-07-11, Implementation of Commonly Accepted Security Configurations
for Windows Operating Systems, required agencies that have deployed the
Windows XP Operating System to adopt the security configurations developed by
NIST. We randomly tested 33 Windows XP workstations located at DOT
Headquarters, including one within OIG, and found none to be in full compliance
with FDCC settings. The average compliance rate of these computers was less
than 70 percent. The OCIO could not provide us with any documentation or
justification of the deviations from the mandated configuration settings.

Without Departmentwide policy, tracking capability of implementation status of
baseline configuration standards, and full deployment of FDCC security settings,
the Department has no assurance that its computer systems have been adequately
configured to minimize vulnerability. Indeed, during our review of one DOT
system, we found that computers supporting the system were vulnerable to
potential cyber attack due to inadequate configuration. This could obviously
threaten DOT’s business operations.

Critical Networks Lacked Comprehensive Intrusion-Detection Coverage

FISMA requires agencies to have procedures for detecting, reporting, and
responding to security incidents. Starting in FY 2008, two DOT incident-response
centers were merged into the CSMC. Currently, CSMC is responsible for
                                                                                                                      11


providing intrusion-detection system (IDS) monitoring services 5 to all Operating
Administrations. This helps the Department address increasing cyber security
threats. CSMC has also improved monitoring coverage to DOT’s Headquarters
operations. However, it has limited IDS monitoring coverage for DOT’s field
operations. For example, other than the Volpe National Transportation Systems
Center and FAA’s regional offices, none of DOT’s field operations were subject to
CSMC monitoring.

According to the CSMC officials, effective IDS deployment to DOT’s network
requires close cooperation between CSMC and the Operating Administrations.
Currently, this cooperation is lacking. In fact, DOT management has not fully
mapped its network infrastructure, including the locations of critical network
points, resulting in deployment of IDS sensors on an ad-hoc basis, which has made
CSMC monitoring of DOT networks less effective. Without effectively deploying
IDS monitoring capability, DOT cannot be fully aware of potential cyber attacks
on its networks and, as a result, cannot take timely action to stop or further prevent
these attacks.

PII Incidents Were Not Immediately Reported

DOT policy, Reporting Cyber Security Incidents and Sensitive Personally
Identifiable Information (SPII) Exposures, requires all cyber security incidents and
SPII exposures be reported to CSMC immediately upon discovery. In addition,
OMB M-06-19, Reporting Incidents Involving Personally Identifiable Information
and Incorporating the Cost for Security in Agency Information Technology
Investments, requires agencies to report all incidents involving PII to the United
States Computer Emergency Readiness Team (US-CERT) within 1 hour of
discovery. However, the Operating Administrations have not followed the
departmental policy to report PII incidents internally to CSMC in a timely manner,
which, in turn, prevented the incidents from being reported to US-CERT within
OMB’s required time frame.

We reviewed 38 PII-related cyber security incidents reported to CSMC between
October 1, 2007 and July 31, 2008. Of these, ten (26 percent) were delayed in
reporting to CSMC from 1 to 12 days. Further, CSMC did not report four PII
incidents to US-CERT—including one that contained the dates of birth of 168
individuals. According to CSMC, dates of birth were not considered sensitive PII
under departmental policy. Consequently, CSMC did not report this incident to
US-CERT, which is in conflict with OMB’s requirement to report all PII incidents
within 1 hour.


5
    To effectively monitor and detect potential cyber security incidents on a network, sensors are installed at the various
    critical network points. These sensors automatically generate security alerts when potential cyber attacks are
    detected, and are usually monitored from a central location that responds to incidents, including intrusions.
                                                                                                                     12


Response to Detected Incidents Was Slow

NIST Special Publication 800-61, Computer Security Incident Handling Guide,
states that an incident-response capability is necessary for rapidly detecting
incidents, minimizing loss and destruction, mitigating the weaknesses that were
exploited, and restoring computing services. We found, however, that Operating
Administrations did not review and correct incidents referred by CSMC in a
timely manner. For example, as of June 30, 2008, there were 233 unresolved
incidents that needed remediation, 77 of which (33 percent) had been open for
more than 3 months, including critical incidents like potentially unauthorized
access to DOT computers.

Why did this occur? Because DOT did not have specific guidance or procedures
in place to direct security officials on how to effectively remediate identified
incidents. In addition, the lack of needed information, such as critical logging data
and complete IP address information, impeded DOT's effort to accurately pinpoint
the computers affected by incidents in order to take timely action.6 Without
timely and effective remediation of cyber incidents, the Department remains at
risk for similar network compromises.


The Department Was Not Ensuring Adequate Security Training
of Its Employees and Contractors

FISMA requires the Secretary to ensure that the Department has sufficiently
trained personnel to assist the agency in complying with FISMA and related
policies, procedures, standards, and guidelines. FISMA also states that the
required agencywide information security program shall include security-
awareness training to inform personnel, including contractors, of information-
security risks associated with their activities, and their responsibilities in
complying with agency policies and procedures designed to reduce these risks.
However, the Department had no mechanism with which to track contractors
requiring security-awareness training. Also lacking was a policy for the use of
collaborative Web technologies; 7 such technologies were likewise not included in
DOT’s security-awareness training, as is required by OMB.

FISMA further requires that the Secretary delegate to the CIO the authority to
ensure compliance with the requirements imposed on the agency, including
training personnel with significant responsibilities for information security. To

6
    An IP address is a unique numerical identification that is assigned to a computer on a network.
7
    Collaborative software is designed to help people involved in a common task achieve their goals and is the basis for
    computer-supported cooperative work. Examples of collaborative software include electronic calendars used to
    schedule events and automatically notify and remind group members about meetings; project management systems
    used to schedule, track, and chart steps in a project as it is being completed; and online spreadsheets used to share
    structured data and information.
                                                                                13


date, the Department has been unable to provide us with any information on
employees or contractors with significant information-security responsibilities
who require or have taken specialized security training. Without such tracking
capabilities, the Department cannot ensure that employees and contractors are
receiving sufficient and appropriate security training.

Employees who are not properly trained about computer security may cause,
contribute to, or become victims of the following vulnerabilities or security
breaches: e-mail exploits, account or password sharing, inadequate safeguarding
of passwords or computer resources, Internet misuse, corporate espionage, or
social engineering. In addition, without including collaborative Web technologies
in its security-awareness training, employees and contractors could misapply these
technologies and enable access and review of sensitive DOT data and information
by unauthorized personnel or entities. This could put sensitive or critical
information at risk for unauthorized disclosure or use that could be detrimental to
DOT and the general public.


Correction of Information Security Weaknesses Was Not
Adequately Managed

For FY 2008, the Department did not improve its management of information
security weaknesses. DOT is required to track and manage information security
weaknesses in POA&Ms; the Department uses CSAM to track its POA&Ms. For
each weakness, these POA&Ms should identify a priority level, a cost estimate to
complete the action, and a milestone date to indicate by when the action will be
remediated. This information is critical if management is to prioritize, fund, and
resolve information-security weaknesses in a timely manner. Last year, we
reported that insufficient action had been taken to correct identified security
deficiencies. We specifically noted that 30 percent of corrections (901 out of
about 3000) were overdue for more than 6 months, and cost estimates to fix 60
percent of the deficiencies were missing.

We found information security weaknesses that were identified but not
incorporated in POA&Ms. Of those that were identified and tracked in the
POA&M system, there were many for which the priority level has not been
assigned or the cost of completing the remedial actions has not been estimated. In
addition, many of the high and moderate weaknesses were not remediated in a
timely manner.

   x Weaknesses Not Recorded. OMB M-08-21 requires that POA&Ms include
     all security weaknesses found during any review done by, for, or on behalf
     of the agency, including Government Accountability Office audits,
     financial system audits, and critical infrastructure vulnerability
                                                                          14


   assessments. In addition, the memorandum requires that these plans be the
   authoritative agencywide management tool, inclusive of all evaluations.
   However, in our review of the 16 sampled IT systems, we found that 8
   (ARTS IIIA, ACE-IDS, OASIS, ADAS, CSAM, HMPIP, FHWA Network,
   and TransStats) did not report all known IT security weaknesses in
   POA&Ms.

x Weaknesses Not Prioritized or Lacking Cost Estimates. OMB M-02-01,
  Guidance for Preparing and Submitting Security Plans of Action and
  Milestones, states that POA&Ms should detail resources required to
  accomplish the elements of the plan and be used to prioritize corrective
  actions. Of the 4,286 open information security weaknesses, 939 (22
  percent) were not prioritized as high, moderate, or low; and 2,493 (58
  percent) did not indicate the cost to resolve/remediate them (see Table 3).


           Table 3. IT Security Weaknesses Lacking
               Categorization and/or Cost Data

                                     Weaknesses
                                             Not
                                     Categorized
                            Total IT    as High,      Estimated
                           Security Moderate, or       Cost Not
         OA             Weaknesses          Low       Identified
         FAA                  3,049           710         1,703
         FHWA                   269             5           266
         FMCSA                   28             2            25
         FRA                    257           200             2
         FTA                     17            15             1
         MARAD                  337             5           191
         NHTSA                    7             0             7
         OIG                     15             0             6
         OST                     53             2            38
         PHMSA                  128             0           128
         RITA                    59             0            59
         SLSDC                    0             0             0
         STB                     67             0            67
                Total         4,286           939         2,493
          Percentage                          22%          58%
                Source: DOT
                                                                                            15




   x Weaknesses Overdue for Correction. We also found 986 information
     security weaknesses whose corrective actions were either overdue or did
     not have a scheduled completion date (see Table 4).


     Table 4. IT Security Weaknesses Overdue for Mitigation


                                 Total                    OVERDUE
                            Overdue or
                               Without                                                       No
                 Total IT    Scheduled                       91-      121             Scheduled
                Security    Completion   1-60    61-90      120     days-       >1   Completion
OA           Weaknesses           Date   days     days     days    1 year    year          Date
STB                   67            67       0        0        0         0      52           15
SLSDC                   0            0       0        0        0         0       0            0
RITA                  59            59       0        0        1         6      18           34
PHMSA                128           128       0       49        0        24      27           28
OST                   53            36       0        1       14         3      17            1
OIG                   15             9       0        0        0         8       1            0
NHTSA                   7            6       0        0        0         0       4            2
MARAD                337             5       1        1        1         0       0            2
FTA                   17             0       0        0        0         0       0            0
FRA                  257           181       2        0       30         0       6          143
FMCSA                 28             9       0        3        0         0       6            0
FAA                3,049           217       7        5        4         2       7          192
FHWA                 269           269       0        0        2        31    226            10
     Total         4,286           986      10       59       52        74    364           427
Percentage                        23%    0.2%     1.4%     1.2%      1.7%    8.5%          10%

       Source: DOT

Without a compliant POA&M process, the Department cannot ensure that its
systems are adequately secured and protected. Specifically, without cost
estimates, proper risk categorizations, or milestones to resolve or mitigate all
weaknesses, it is difficult or impossible for the Department to adequately prioritize
and resolve open weaknesses. As a result, weaknesses of lesser urgency may get
resolved before critical ones. In addition, allowing weaknesses to remain
unaccounted for, unresolved, or unmitigated for extended periods of time allows
for unnecessary vulnerabilities and exposures that may be exploited by intruders,
or may otherwise compromise the availability or integrity of essential systems and
data.
                                                                                  16


DOT Systems Were Not Sufficiently Protected or Adequately
Tested To Ensure Recovery

The Department was not sufficiently protecting its systems or ensuring that they
can be recovered when necessary. Last year we reported that 11 (52 percent) of 21
sampled systems did not meet minimum security-protection requirements. For FY
2008, there were no significant improvements.


Mandated Online Authentication Requirements Were Not Being Met

The Federal Government wants its citizens to be able to access Government
services quickly and easily through the Internet. To ensure that online
Government services are secure and protect privacy, some type of identity
verification or authentication (referred to as e-authentication) is needed. OMB M-
04-04, E-Authentication Guidance for Federal Agencies, prescribes a process for
agencies to use in determining what level of assurance is needed to verify the
identity of the requester. This process includes, but is not limited to, conducting a
risk assessment of the e-government system, validating that the implemented
system has achieved the required assurance level, and periodically reassessing the
system to determine technology-refresh requirements.

Our review of the OCIO's inventory of e-authentication systems and supporting
documentation for three sample systems managed by the Federal Motor Carrier
Safety Administration (FMCSA) and the Federal Railroad Administration (FRA),
including certification and accreditation packages, found the following:

   x No e-authentication documentation was available to support the three
     sampled DOT system classifications and categorized assurance levels.

   x The risk assessments of the three systems did not contain any information
     regarding e-authentication.

   x The system security plans of the three systems did not address e-
     authentication requirements.

   x FMCSA and FRA officials were unaware whether any validation of the
     three systems had occurred, and could not provide any documentation to
     support validation.

In addition, the Department has not identified all systems requiring e-
authentication. For example, FAA's Medical Support System, which allows
thousands of airmen to complete medical applications online through the Internet,
was not included in the inventory of systems that requires e-authentication.
                                                                               17



Without supporting e-authentication documentation and a complete inventory of e-
authentication systems, the Department has no assurance that its IT systems
requiring e-authentication are adequately identified and protected. Further,
without considering e-authentication requirements during the certification and
accreditation process, changes to e-authentication levels or other matters may
occur without an appropriate reassessment of each system's e-authentication
requirements.

Systems Were Not Certified and Accredited in Accordance with NIST
Standards

NIST SP 800-37, Guide for the Security Certification and Accreditation of
Federal Information Systems, states that the security accreditation package
documents the results of the security certification and provides the authorizing
official with the essential information needed to make a credible, risk-based
decision on whether to authorize operation of the information system. It further
states that the security accreditation package should contain an approved system
security plan, a security assessment report, and a POA&M. Half (8) of our 16
sampled systems did not meet these core requirements (see Table 5).

               Table 5: Sampled Systems’ C&A Results

                                                 Systems
                                                  Without
                                                     Fully
                                     Sampled    Compliant
                       OA            Systems       C&As
                       FAA                 11            5
                       FHWA                 1            1
                       FMCSA                1            1
                       FRA                  1            0
                       OST                  1            0
                       RITA                 1            1
                        Total              16            8
                            Source: OIG

OMB Circular A-130, Appendix III, Security of Federal Automated Information
Resources, requires that systems be reauthorized (i.e., accredited) at least once
every 3 years. However, 20 of FHWA’s 26 systems had not been recertified, and
were operating without accreditation, including two high-impact systems whose
certifications and accreditations expired in November 2007. Without proper
certification and accreditation, the Department lacks a crucial management control
that ensures that systems are properly assessed for risk, have been independently
tested, and have identified and sufficiently mitigated weaknesses. Consequently,
                                                                               18


management cannot ensure that systems are operating without unacceptable risks
or weaknesses.

Contingency Plans Were Not Being Tested

OMB Circular A-130, Appendix III, Security of Federal Automated Information
Resources, requires agencies to establish and periodically test the capability to
continue providing service within a system based upon the needs and priorities of
the participants of the system. NIST Special Publication 800-53, Revision 2,
Recommended Security Controls for Federal Information Systems, further requires
that agencies test and update their system contingency plans at least annually. As
shown in table 6, only 11 of 16 sampled systems had a contingency plan. In
addition, only 9 of the 11 contingency plans had complied with testing
requirements.

          Table 6: Sampled Systems’ Contingency Status

                                                       Systems With
                                       Systems With          Tested
                         Sampled        Contingency     Contingency
                 OA      Systems              Plans           Plans
            FAA                11                  7                 6a
            FHWA                1                  1                  1
            FMCSA               1                  1                  1
            FRA                 1                  1                  1
            OST                 1                  1                  0
            RITA                1                  0                 --
             Total             16                 11                  9
             a
              Includes a system for which testing was not yet due.
             Source: OIG

Without adequate preparation and testing of system contingency plans, DOT
cannot ensure that systems will operate properly or in a timely manner during an
emergency or service disruption. Loss of DOT IT systems would limit DOT
management's ability to perform its missions, including its critical functions in
serving the public.
                                                                               19


RECOMMENDATIONS

In order to reduce the vulnerabilities currently inherent in the Department’s
information security program, we recommend that the Chief Information Officer
do the following:

Information Security and Privacy Programs:

   1. Provide information security performance metrics to be included in
      Operating Administration CIOs’ performance standards and subsequently
      provide input on their performance in addressing these metrics;

   2. Develop and issue comprehensive, compliant information-security policies
      and procedures as required by FISMA, OMB, and NIST;

   3. Complete review of its draft breach-notification policy, perform revisions
      as necessary to conform to OMB requirements, and issue an official breach-
      notification policy;

   4. Review and finalize its plan to reduce Social Security numbers, and
      implement the reduction of Social Security numbers in the time frame set
      forth by OMB.

   5. Issue a policy outlining the rules of behavior and identifying consequences
      and corrective actions available for failure to protect privacy;

   6. Establish a departmentwide internal FISMA cut-off date that allows
      sufficient time for the Department to conduct meaningful internal review,
      which includes evaluating the accuracy of the data it includes in its FISMA
      report as well as time to resolve any potential disputes with the OIG;

   7. Maintain an adequate audit trail of data supporting FISMA reports as of the
      selected cut-off date;


Network Security:

   8. Assign a priority to finalizing the DOT configuration management policy;

   9. Require Operating Administrations to periodically report status of baseline
      configuration compliance and independently validate compliance status
      reported by Operating Administrations;
                                                                                 20


   10. Implement NIST FDCC settings on the Windows XP workstations on the
       DOT Common Operating Environment, require Operating Administrations
       to implement FDCC settings on Operating Administrations’ Windows XP
       workstations, and document any required deviations from those settings;

   11. Establish a timetable for Operating Administrations to work with CSMC to
       deploy monitoring devices covering all DOT critical networks;

   12. Enforce Operating Administrations’ reporting of PII-related security
       incidents to CSMC immediately upon discovery, as specified in DOT
       policy;

   13. Revise DOT policies to meet the OMB requirement for reporting PII
       incidents;

   14. Implement procedures for Operating Administrations to take timely
       remedial action for identified incidents;

   15. Direct CSMC and Operating Administrations to work together to collect
       and share the information needed for cyber incident-response reporting,
       such as IP- address assignment and critical logging data;

Security Training:

   16. Enforce the requirements for all employees and contractors to take security-
       awareness training in order to gain and maintain access to Department
       systems;

   17. Establish a tracking system or other process that effectively and routinely
       accounts for all active contractors requiring security training;

   18. Establish a mechanism to identify and train employees and contractors
       requiring specialized security training;

   19. Include collaborative Web technologies in the Department’s required
       security-awareness training;

Management of Information Security Weaknesses:

   20. Ensure that all weaknesses that are identified during reviews, including
       certification and accreditation, and that require remediation, are tracked in
       the Department’s POA&M system;

   21. Establish adequate policies for timeliness of remediation and enforce such
       policies;
                                                                                 21



   22. Require that all identified weaknesses include a cost estimate and that these
       estimates, along with the severity of the weakness, be used to prioritize
       these weaknesses for correction;

Systems Security:

   23. Implement a process to ensure that all departmental systems that require
       e-authentication are identified in the e-authentication system inventory and
       that the necessary e-authentication supporting documentation is obtained or
       developed for these systems;

   24. Ensure that all systems that require e-authentication have certification and
       accreditation packages that include support for e-authentication in the
       appropriate sections of their system security plans and risk assessments;

   25. Validate that e-authentication systems have operationally achieved the
       required assurance level;

   26. Require development and appropriate annual testing of system contingency
       plans and ensure that tested contingency plans are updated based on the
       results of the contingency plan tests performed; and

   27. Enforce certification and accreditation requirements uniformly throughout
       the Department.




MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

A draft of this report was provided to the Department’s CIO on September 30,
2008. On October 7, 2008, we received the Department CIO’s response, which
can be found in its entirety in the Appendix. The CIO concurred with our findings
and recommendations and will provide, in 30 days, written comments describing
the specific actions and milestones that will be taken to implement the
recommendations.
                                                                                 22


ACTIONS REQUIRED

We will review the Chief Information Officer’s detailed action plans to determine
whether they satisfy the intent of our recommendations. All corrections are
subject to follow-up provisions in DOT Order 8000.1.C. We appreciate the
courtesies and cooperation of the CIO Office and the Operating Administrations’
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1959; David Dobbs, Principal Assistant Inspector
General for Auditing and Evaluation, at (202) 366-0500; or Rebecca C. Leng,
Assistant Inspector General for Financial and Information Technology Audits, at
(202) 366-1407.


                                         #

cc: Deputy Secretary
    Assistant Secretary for Budget and Programs/Chief Financial Officer
    Acting Federal Aviation Administrator
    CIO Council Members
    Martin Gertel, M-1
                   EXHIBIT A. OIG INPUT TO FISMA REPORT                                                                                                                                                                 23

                                                                                           Section C - Inspector General: Questions 1 and 2
Agency Name:                                                               Department of Transportation                                                                 Submission date:                   October 1, 2008
                                                                                                  Question 1: FISMA Systems Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199 system impact level (high, moderate, low, or not categorized).
Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of an agency or other organization on behalf of an agency.
The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet the requirements of
law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                                                               Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing

2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of systems which have: a current certification and
accreditation, security controls tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                                                                                              Question 1                                                            Question 2
                                                                                                          a.                      b.                    c.                       a.                        b.                c.
                                                                                                    Agency Systems            Contractor         Total Number of         Number of systems        Number of systems Number of systems
                                                                                                                               Systems              Systems                certified and          for which security     for which
                                                                                                                                                  (Agency and               accredited            controls have been contingency plans
                                                                                                                                                   Contractor                                    tested and reviewed have been tested in
                                                                                                                                                    systems)                                        in the past year  accordance with
                                                                                                                                                                                                                           policy


                                                                                                                                                             Total
                                                                           FIPS 199 System                      Number          Number   Total                            Total       Percent of  Total    Percent of  Total      Percent of
Bureau Name                                                                                        Number               Number                              Number
                                                                           Impact Level                        Reviewed        Reviewed Number                           Number         Total    Number      Total    Number        Total
                                                                                                                                                           Reviewed
Federal Aviation Administration                                            High                          18            3         0                    18            3             1        33%         2          67%         0          0%
                                                                           Moderate                     157            6        12                   169            6             5        83%         5          83%         5         83%
                                                                           Low                           72            2         3                    75            2             0         0%         2         100%         1         50%
                                                                           Not Categorized                2            0         0                     2            0
                                                                           Sub-total                    249           11        15           0       264           11             6        55%         9         82%          6         55%
Federal Highway Administration                                             High                           6            1                               6            1             0         0%         0          0%          1        100%
                                                                           Moderate                      13                      1                    14            0
                                                                           Low                            6                                            6            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                      25           1         1           0        26            1             0         0%         0          0%          1        100%
Federal Motor Carrier Safety Administration                                High                                                                        0            0
                                                                           Moderate                       19           1         2                    21            1             0         0%         1         100%         1        100%
                                                                           Low                             1                     1                     2            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                      20           1         3           0        23            1             0         0%         1         100%         1        100%
Federal Railroad Administration                                            High                                                                        0            0
                                                                           Moderate                       11                     3           1        14            1             1       100%         1         100%         1        100%
                                                                           Low                             4                     3                     7            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                      15           0         6           1        21            1             1       100%         1         100%         1        100%
Federal Transit Administration                                             High                                                                        0            0
                                                                           Moderate                        4                                           4            0
                                                                           Low                             1                                           1            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                       5           0         0           0         5            0             0                    0                      0
Maritime Administration                                                    High                            1                                           1            0
                                                                           Moderate                        8                                           8            0
                                                                           Low                             4                                           4            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                      13           0         0           0        13            0             0                    0                      0
National Highway Traffic Safety Administration                             High                                                                        0            0
                                                                           Moderate                        6                     2                     8            0
                                                                           Low                             2                     1                     3            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                       8           0         3           0        11            0             0                    0                      0
Office of the Inspector General                                            High                                                                        0            0
                                                                           Moderate                        2                                           2            0
                                                                           Low                                                                         0            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                       2           0         0           0         2            0             0                    0                      0
Office of the Secretary                                                    High                                                  3           1         3            1             1       100%         1         100%         0          0%
                                                                           Moderate                       19                     7                    26            0
                                                                           Low                             6                     8                    14            0
                                                                           Not Categorized                 1                                           1            0
                                                                           Sub-total                      26           0        18           1        44            1             1       100%         1         100%         0          0%
Pipeline and Hazardous Materials Safety Administration                     High                                                                        0            0
                                                                           Moderate                                              2                     2            0
                                                                           Low                             1                     1                     2            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                       1           0         3           0         4            0             0                    0                      0
Research and Innovative Technology Administration                          High                            1           1                               1            1             0         0%         1         100%         0          0%
                                                                           Moderate                        5                     3                     8            0
                                                                           Low                                                                         0            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                       6           1         3           0         9            1             0         0%         1         100%         0          0%
Saint Lawrence Seaway Development Corporation                              High                                                                        0            0
                                                                           Moderate                                                                    0            0
                                                                           Low                             1                                           1            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                       1           0         0           0         1            0             0                    0                      0
Surface Transportation Board                                               High                                                                        0            0
                                                                           Moderate                        2                                           2            0
                                                                           Low                                                                         0            0
                                                                           Not Categorized                                                             0            0
                                                                           Sub-total                      2            0         0           0         2            0             0                    0                      0
Agency Totals                                                              High                          26            5         3           1        29            6             2        33%         4          67%         1         17%
                                                                           Moderate                     246            7        32           1       278            8             6        75%         7          88%         7         88%
                                                                           Low                           98            2        17           0       115            2             0         0%         2         100%         1         50%
                                                                           Not Categorized                3            0         0           0         3            0             0                    0                      0
                                                                           Total                        373           14        52           2       425           16             8        50%        13         81%          9         56%




                   Exhibit A. OIG Input to FISMA Report
                                                                                                                                                      24



                                                    Section C - Inspector General: Question 3
Agency Name: Department of Transportation
Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

                The agency performs oversight and evaluation to ensure information systems used or operated by a
                contractor of the agency or other organization on behalf of the agency meet the requirements of FISMA,
                OMB policy and NIST guidelines, national security policy, and agency policy.

                Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or
                other organization on behalf of their agency; therefore, self reporting by contractors does not meet the
                requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be
                sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.                     Rarely (0-50% of the time)
      3.a.
                Response Categories:
                 - Rarely- for example, approximately 0-50% of the time
                 - Sometimes- for example, approximately 51-70% of the time
                 - Frequently- for example, approximately 71-80% of the time
                 - Mostly- for example, approximately 81-95% of the time
                 - Almost Always- for example, approximately 96-100% of the time

                The agency has developed a complete inventory of major information systems (including major national
                security systems) operated by or under the control of such agency, including an identification of the
                interfaces between each such system and all other systems or networks, including those not operated by
                or under the control of the agency.

                Response Categories:                                                                                             Inventory is 96-100% complete
      3.b.
                 - The inventory is approximately 0-50% complete
                 - The inventory is approximately 51-70% complete
                 - The inventory is approximately 71-80% complete
                 - The inventory is approximately 81-95% complete
                 - The inventory is approximately 96-100% complete

      3.c.      The IG generally agrees with the CIO on the number of agency-owned systems. Yes or No.                                          Yes

                The IG generally agrees with the CIO on the number of information systems used or operated by a
      3.d.                                                                                                                                      Yes
                contractor of the agency or other organization on behalf of the agency. Yes or No.

      3.e.      The agency inventory is maintained and updated at least annually. Yes or No.                                                    Yes

                If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems by
                Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit 53 (if known),
                and indicate if the system is an agency or contractor system.
                                                                                                    Exhibit 53 Unique Project
                             Component/Bureau                           System Name                      Identifier (UPI)          Agency or Contractor system?
                                                                                                       {must be 23-digits}




      3.f.




                Number of known systems missing from
                inventory:




    Exhibit A. OIG Input to FISMA Report
                                                                                                                                                               25



                                                     Section C - Inspector General: Questions 4 and 5
Agency Name:          Department of Transportation
                                        Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process. Evaluate the
degree to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or necessary, include comments
in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
                    The POA&M is an agency-wide process, incorporating all known IT security weaknesses associated with information
        4.a.        systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the            Rarely (0-50% of the time)
                    agency.
                     When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system)
        4.b.                                                                                                                                  Rarely (0-50% of the time)
                     develop, implement, and manage POA&Ms for their system(s).

                     Program officials and contractors report their progress on security weakness remediation to the CIO on a regular
        4.c.                                                                                                                                  Rarely (0-50% of the time)
                     basis (at least quarterly).

        4.d.         Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                      Rarely (0-50% of the time)


        4.e.         IG findings are incorporated into the POA&M process.                                                                     Rarely (0-50% of the time)

                     POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed
        4.f.                                                                                                                                  Rarely (0-50% of the time)
                     in a timely manner and receive appropriate resources.

 POA&M process
   comments:


                                             Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and standards.
Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for certification
and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information and Information
Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk assessments and security
plans.

                     The IG rates the overall quality of the Agency's certification and accreditation process as:

                     Response Categories:
                      - Excellent
        5.a.                                                                                                                                          Satisfactory
                      - Good
                      - Satisfactory
                      - Poor
                      - Failing

                     The IG's quality rating included or considered the following aspects of the C&A Security plan                                         X
                     process: (check all that apply)
                                                                                                     System impact level                                   X
                                                                                                     System test and evaluation                            X
                                                                                                     Security control testing                              X
        5.b.                                                                                         Incident handling                                     X
                                                                                                     Security awareness training
                                                                                                     Configurations/patching
                                                                                                                                            Risk Assessment, Contigency
                                                                                                            Other:
                                                                                                                                            Plan and POAM


   C&A process
    comments:




           Exhibit A. OIG Input to FISMA Report
                                                                                                                                                         26



                                                Section C - Inspector General: Questions 6, 7, and 8
Agency Name:    Department of Transportation
                         Question 6-7: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

                Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA) process, as discussed in
                Section D Question #5 (SAOP reporting template), including adherence to existing policy, guidance, and
                standards.

                Response Categories:
                 - Response Categories:                                                                                                     Satisfactory
       6
                 - Excellent
                 - Good
                 - Satisfactory
                 - Poor
                 - Failing


   Comments:



                Provide a qualitative assessment of the agency’s progress to date in implementing the provisions of M-07-16
                Safeguarding Against and Responding to the Breach of Personally Identifiable Information.

                Response Categories:
                 - Response Categories:
                                                                                                                                               Failing
       7         - Excellent
                 - Good
                 - Satisfactory
                 - Poor
                 - Failing

                 DOT Breach Policy is in Draft and still undergoing revision. This policy should had been issued by September 2007. DOT has not completed its
   Comments:    review to determine which IT systems contain PII. Therefore, the Privacy Officer could not provide assurance that the unreviewed IT systems do not
                contain PII. DOT has not implemented a plan to reduce social security numbers. DOT doe not have rules of behavior and consequences policy in
                place.
                                                           Question 8: Configuration Management

      8.a.      Is there an agency-wide security configuration policy? Yes or No.                                                                No
Comments:       DOT does not have a security configuration policy in place. This policy is under development.


                Approximate the extent to which applicable systems implement common security configurations, including
      8.b.
                use of common security configurations available from the National Institute of Standards and Technology’s
                website at http://checklists.nist.gov.                                                                               Rarely (0-50% of the time)

                Response categories:

                 -   Rarely- for example, approximately 0-50% of the time
                 -   Sometimes- for example, approximately 51-70% of the time
                 -   Frequently- for example, approximately 71-80% of the time
                 -   Mostly- for example, approximately 81-95% of the time
                 -   Almost Always- for example, approximately 96-100% of the time


      8.c.      Indicate which aspects of Federal Desktop Core Configuration (FDCC) have been implemented as of this report:


                c.1. Agency has adopted and implemented FDCC standard configurations and has documented deviations.
                                                                                                                                                 No
                Yes or No.

                c.2 New Federal Acquisition Regulation 2007-004 language, which modified "Part 39—Acquisition of
                                                                                                                                                 No
                Information Technology", is included in all contracts related to common security settings. Yes or No.

                c.3 All Windows XP and VISTA computing systems have implemented the FDCC security settings. Yes or
                                                                                                                                                 No
                No.




           Exhibit A. OIG Input to FISMA Report
                                                                                                                                                         27



                                               Section C - Inspector General: Questions 9, 10 and 11
Agency Name:        Department of Transportation
                                                                 Question 9: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law enforcement. If
appropriate or necessary, include comments in the area provided below.
                    The agency follows documented policies and procedures for identifying and reporting incidents internally.
        9.a.                                                                                                                                       No
                    Yes or No.
                    The agency follows documented policies and procedures for external reporting to US-CERT. Yes or No.
        9.b.                                                                                                                                       Yes
                    (http://www.us-cert.gov)

        9.c.        The agency follows documented policies and procedures for reporting to law enforcement. Yes or No.                             Yes

Comments:           We found that ten incidents involving PII were not reported within the 1-hour requirement; some were many days late. The CIO viewed these as a
                    small subset of a much larger universe of security incidents. However, considering the importance of timely reporting of sensitive breaches
                    concerning privacy information, we concluded that the Department did not follow documented policies and procedures for reporting incidents
                    internally.
                                                           Question 10: Security Awareness Training
Has the agency ensured security awareness training of all employees, including contractors and those employees with
significant IT security responsibilities?

Response Categories:
 - Rarely- or approximately 0-50% of employees                                                                                        Rarely (0-50% of employees)
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees
                                         Question 11: Collaborative Web Technologies and Peer-to-Peer File Sharing

Does the agency explain policies regarding the use of collaborative web technologies and peer-to-peer file sharing in IT security
                                                                                                                                                   No
awareness training, ethics training, or any other agency-wide training? Yes or No.

                                                       Question 12: E-Authentication Risk Assessments
12.a. Has the agency identified all e-authentication applications and validated that the applications have operationally achieved
the required assurance level in accordance with the NIST Special Publication 800-63, “Electronic Authentication Guidelines”?                       No
Yes or No.
12.b. If the response is “No”, then please identify the systems in which the agency has not            The three systems that OIG reviewed had not implemented e-
implemented the e-authentication guidance and indicate if the agency has a planned date of             authentication guidance.
remediation.




          Exhibit A. OIG Input to FISMA Report
                                                                                  28




EXHIBIT B. SCOPE AND METHODOLOGY
The Federal Information Security Management Act of 2002 (FISMA) requires that
we perform an independent evaluation to determine the effectiveness of the
Department’s information security program and practices. FISMA further requires
that our evaluation include testing of a representative subset of systems and an
assessment, based on our testing, of the Department’s compliance with FISMA
and applicable requirements. On July 14, 2008, the Office of Management and
Budget (OMB) issued M-08-21, Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, which
provides instructions for inspectors general for completing their FISMA
evaluations and the required OMB template.

To meet FISMA and OMB requirements, we selected a representative subset of 16
departmental systems (see Table 7) and reviewed the compliance of these systems
with NIST and OMB requirements in the areas of risk categorization, security
plans, annual control testing, contingency planning, certification and accreditation,
incident handling, and plans of actions and milestones. We also conducted testing
to assess the Department’s inventory, its overall process of resolving information
security weaknesses, certain privacy requirements, configuration management,
incident reporting, security-awareness training, and e-authentication. Our tests
included analysis of data contained in the Department’s Cyber Security
Assessment and Management system, reviews of supporting documentation, and
interviews with departmental officials. We also used commercial scanning
software to assess network vulnerabilities and compliance with Federal Desktop
Core Configuration requirements.

For FY 2008, we determined that work pertaining to Earned Value Management
(EVM) would no longer be included within the scope of our FISMA audit and will
be included in a separate report. In addition, we determined that audit work and
findings developed specific to FAA’s business continuity plans and to its testing of
operational systems outside of the computer laboratory would be the subject of a
separate report. We did, however, include eleven FAA systems in our sample to
ensure adequate representation of FAA and considered FAA data as it related to
our overall conclusions on DOT’s information security program and practices.




Exhibit B. Scope and Methodology
                                                                              29


      Table 7. OIG’s Representative Subset of DOT Systems


      Operating                                                  Contractor
      Administration   System                                     System?
                       Automated Surface Observing System
                       Controller Equipment/Integrated Display
      FAA              System (ACE-IDS)                             No
                       Automated Weather Observation
                       System Data Acquisition System
      FAA              (ADAS)                                       No
      FAA              CAPSTONE                                     No
                       Automated Radar Terminal System IIIA
      FAA              (ARTS IIIA)                                  No
                       Cyber Security Assessment and
      FAA              Management (CSAM)                            No
      FAA              FALCON                                       No
                       Human Resources -Grievance
      FAA              Electronic Tracking System (GETS)            No
                       Logical Access & Authorization Control
      FAA              (LAACS)                                      No
                       On-Line Aviation Safety Inspection
                       System–Office of Aviation Safety
      FAA              (OASIS-AVS)                                  No
      FAA              Parts Reporting System (PRS)                 No
                       Weather Messaging Switching Center
      FAA              Replacement Sustainment (WMSCR)              No
      FHWA             FHWA Network/LAN/WAN                         No
                       Hazardous Materials Package
      FMCSA            Inspection Program (HMPIP)                   No
                       Automated Track Inspection Program
      FRA              (ATIP)                                      Yes
                       Data Center Common Operating
      OST              Environment (COE)                           Yes
                       Intermodal Transportation Database
      RITA             (ITDB)/TranStats                             No
      Source: OIG


As required by OMB, we completed the FISMA template, which captured key
security metrics and qualitative assessments pertaining to DOT’s information
security program and practices. We also reviewed the Department’s progress in
resolving weakness identified in our prior year’s FISMA report and compared our
current FISMA template to the prior template. OMB requires that the FISMA
template include information from all DOT Operating Administrations, including
OIG.



Exhibit B. Scope and Methodology
                                                                              30


We performed our information security review work throughout FY 2008,
focusing on OMB’s FISMA template between June 2008 and September 2008.
We conducted our work at departmental and Operating Administration
Headquarters offices in the Washington, D. C., area. We conducted our audit in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Previous audit reports on the Department’s information security program issued in
response to the FISMA legislative mandate (formerly the Government Information
Security Reform Act) include:

DOT Information Security Program, FI-2008-001, October 10, 2007;
DOT Information Security Program, FI-2007-002, October 23, 2006;
DOT Information Security Program, FI-2006-002, October 7, 2005;
DOT Information Security Program, FI-2005-001, October 1, 2004;
DOT Information Security Program, FI-2003-086, September 25, 2003;
DOT Information Security Program, FI-2002-115, September 27, 2002; and
DOT Information Security Program, FI-2001-090, September 7, 2001.




Exhibit B. Scope and Methodology
                                                                        31




EXHIBIT C. DEPARTMENTAL OPERATING ADMINISTRATIONS
AND SYSTEM INVENTORY COUNTS


      Operating Administration                      FY 2008   FY 2007
      Federal Aviation Administration (FAA)            264       264
      Federal Highway Administration (FHWA)             26        25
      Federal Motor Carrier Safety Administration
      (FMCSA)                                          23        23
      Federal Railroad Administration (FRA)            21        20
      Federal Transit Administration (FTA)              5         5
      Maritime Administration (MARAD)                  13        11
      National Highway Traffic Safety
      Administration (NHTSA)                           11        18
      Office of Inspector General (OIG)                 2         3
      Office of the Secretary (OST)                    44        42
      Pipeline and Hazardous Materials Safety
      Administration (PHMSA)                            4         5
      Research and Innovative Technology
      Administration (RITA)                             9        10
      Saint Lawrence Seaway Development
      Corporation (SLSDC)                               1         1
      Surface Transportation Board (STB)                2         2
          Total Systems                               425       429

           Source: OIG and DOT




Exhibit C. Departmental Operating Administrations and System
Inventory Counts
                                                                                            32


 EXHIBIT D. COMPARISON OF FISMA RESULTS FROM FY 2007
 TO FY 2008
Template       OMB-Required Metrics and/or Qualitative
Question No.   Assessments                                                  FY 2007        FY 2008
2a             Percentage of systems certified and accredited                     81%             50%
2b             Percentage of systems tested annually                              43%             81%
2c             Percentage with tested contingency plans                           19%             56%
               Agency performs oversight and evaluation of contractor-
3a             owned systems.                                                  Always            Rarely
               Agency has developed a complete inventory of major
3b             information systems.                                            Always         Always
               IG generally agrees with CIO on number of agency-
3c             owned information systems.                                          Yes             Yes
               IG generally agrees with CIO on number of contractor-
3d             owned information systems.                                          Yes             Yes
3e             Inventory is maintained and updated annually.                       Yes             Yes
               The POA&M is an agencywide process incorporating all
4a             known IT security weaknesses.                               Sometimes             Rarely
               When an IT security weakness is identified, program
4b             officials develop, implement, and manage POA&Ms.            Sometimes             Rarely
               Officials report their progress on security weakness
4c             remediation to the CIO at least quarterly.                      Always            Rarely
               Agency CIO centrally tracks, maintains, and reviews
4d             POA&M activities at least quarterly.                             Always         Rarely
4e             IG findings incorporated into POA&M process.                     Always         Rarely
4f             POA&M process prioritizes IT security weaknesses.            Frequently         Rarely
5a             Quality of the certification and accreditation process      Satisfactory   Satisfactory
6              Quality of the Privacy Impact Assessment                           Good    Satisfactory
               Quality of the agency’s progress in implementing OMB’s
7              Breach-Notification Requirements.                                   N/A         Failing
8a             Is there an agencywide security configuration policy?               Yes             No
               Extent to which systems implement common security
8b             configurations                                                   Rarely           Rarely
8c1            Agency implemented FDCC standard configurations?                   N/A               No
               New acquisition regulations are included in all contracts
8c2            related to common security settings.                                N/A              No
               All Windows XP and VISTA systems have implemented
8c3            FDCC settings.                                                      N/A              No
               Agency follows documented procedures for identifying
9a             and reporting incidents internally.                                 Yes              No
               Agency follows documented procedures for reporting
9b             incidents to US-CERT.                                               Yes             Yes
               Agency follows documented procedures for reporting
9c             incidents to law enforcement.                                       Yes             Yes
               Agency has ensured that security training is provided to
10             employees and contractors.                                   Frequently           Rarely
               Agency explains policies regarding collaborative Web
11             technologies and peer-to-peer file sharing in training.             N/A              No
               Agency identified and validated all e-authentication
12             applications.                                                       N/A              No

 Source: OIG


 Exhibit D. Comparison of FISMA Results From FY 2007 to FY 2008
                                                                            33


 EXHIBIT E. STATUS OF PRIOR YEAR’S RECOMMENDATIONS


  FY 2007 FISMA
      Report
 Recommendation
     Number       FY 2007 Recommendation                           Status
                  Enhance the protection of information
                  systems by working with the Acting
                  FAA Administrator to establish target      To Be Addressed in
        1
                  dates for correcting air traffic control    a Separate Report
                  systems' risk categorization in
                  accordance with departmental policy.
                  Enhance the protection of information
                  systems by working with the affected
                  Operating Administrations to ensure         Addressed in a
        2
                  proper risk categorization and security     Separate Report
                  protection of systems containing
                  personally identifiable information.
                  Enhance the protection of information
                  systems by requiring Operating
                                                               Replaced by
                  Administration CIOs and system
        3                                                       FY 2008
                  owners to identify and implement
                                                             Recommendation
                  security upgrades needed to meet
                                                                   #27
                  minimum security standards by
                  March 31, 2008.
                  Enhance the protection of information
                  systems by establishing a security test
                  and evaluation process for all
        4         departmental systems operating on the            Open
                  common IT infrastructure after the
                  security controls review is complete for
                  the expanded infrastructure.
                  Enhance correction of identified
                  security deficiencies by working with
                  Operating Administrators to develop
                  measures of accountability that would
                                                               Replaced by
                  hold Operating Administration CIOs
        5                                                        FY 2008
                  and system owners responsible for
                                                             Recommendations
                  timely correction and decisions to
                                                                #20, 21, 22
                  support cancellations of identified
                  security weaknesses, such as
                  incorporating these measures as part
                  of their performance standards.




Exhibit E. Status of Prior Year’s Recommendations
                                                                                34



  FY 2007 FISMA
      Report
 Recommendation
     Number        FY 2007 Recommendation                          Status
                   Enhance network security configuration
                   by working with Operating
                   Administrations to establish an
                   effective methodology to ensure that
                                                                Replaced by
                   commercial software products used in
        6                                                         FY 2008
                   departmental systems are configured in
                                                              Recommendations
                   accordance with security standards;
                                                                  #8, 9, 10
                   and by deploying an automated tool to
                   systematically verify compliance with
                   departmental baseline configuration
                   standards.
                   Enhance network security configuration
                   by finalizing the secure remote access
                   implementation and management
                   policy; and continuing to explore
                   alternatives to using employee home
        7                                                          Open
                   computers for telework, such as having
                   a pool of Government-issued laptop
                   computers that are properly configured
                   and in compliance with departmental
                   security standards to support telework.
                   Ensure the consistency and timeliness
                   of security-incident reporting by
                                                                Replaced by
                   directing the FAA CSIRC to establish
        8                                                         FY 2008
                   consistent procedures to ensure that all
                                                              Recommendations
                   security incidents are reported to the
                                                                  #12, 13
                   Department and US-CERT in a timely
                   manner.
                   Ensure the consistency and timeliness
                   of security-incident reporting by
        9          conducting periodic reviews of the              Open
                   effectiveness of FAA's security-
                   incident-reporting practice
                   Ensure the consistency and timeliness
                   of security-incident reporting by
                   working with the FAA CIO to ensure
       10          accurate security performance                   Open
                   measurement reporting in the
                   Performance and Accountability Report
                   to OMB and the Congress.
     Source: OIG




Exhibit E. Status of Prior Year’s Recommendations
                                                                    35


EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Rebecca C. Leng                         Assistant Inspector General for
                                        Financial and Information
                                        Technology Audits
Louis C. King                           Program Director
Dr. Ping Z. Sun                         Program Director for IT Audit
                                        Computer Laboratory
James Mallow                            Project Manager
Lissette Mercado                        Project Manager
Michael P. Fruitman                     Communications Adviser
Vasily Gerasimov                        Information Technology
                                        Specialist
Martha Morrobel                         Information Technology
                                        Specialist
Anthony Cincotta                        Information Technology
                                        Specialist




Exhibit F. Major Contributors to This Report
                                                                                                     36

           APPENDIX. MANAGEMENT COMMENTS



           U.S. Department of
           Transportation
                                                                       Memorandum
           Office of the Secretary
           of Transportation

Subject:    Response to OIG Input to FISMA Report (Exhibit A),                       Date:

            for the Audit of the DOT Information Security Program,                            October 7, 2008
            DOT
                                                                             Reply to Attn.
  From:                                                                                 of:

            Dan Mintz
            DOT Chief Information Officer
    To:
            Calvin L. Scovel, III
            DOT Inspector General

           The Department of Transportation (DOT) Chief Information Officer (CIO) reviewed the
           Office Of Inspector General (OIG’s) draft final FY 2008 Information Security Program
           Audit Report and provided oral comments.

           The CIO concurred with the report’s findings and recommendations and will provide
           written comments describing the specific actions and milestones that will be taken to
           implement the recommendations, thirty (30) days after the signing date of the official FY
           2008 FISMA Report.

           Subsequent to its review, the CIO was pleased to note that actions are already being taken
           in many areas to address the recommendations of the audit team, including:

                x    The CIO allowed for an additional thirty (30) days of activity by the modes
                     beyond the OIG audit cutoff of August 31, 2008. The additional inputs obtained
                     during that period contribute to differences between the CIO’s overall assessment
                     of the Department and findings by the OIG (Exhibit D). As a consequence, the
                     CIO will evaluate and establish a “FISMA year” to avoid these differences during
                     subsequent FISMA evaluation cycles within the first quarter of FY2009.

                x    In the area of incident response and reporting, the CIO is renewing the
                     memorandum of agreement with the Federal Aviation Administration (FAA) for
                     services provided to the Department by the Cyber Security Management Center
                     (CSMC), expects to have the Secretarial Charter for the CSMC Board signed by
                     the end of Q1 FY2009, and has assigned a resource to review and enhance
                     reporting and metrics, and to provide oversight of modal plans to provide
                     increased network visibility to the CSMC by the end of Q2 FY2009. In
                     establishing the CSMC via Secretarial charter, it is instantiated as a Departmental
                     entity with direct accountability to the Secretary, has durability in that it requires

           Appendix. Management Comments
                                                                                           37
          Secretarial action to revoke the charter, and it serves to elevate situational
          awareness and incident response to the attention of senior management.

      x   As required by M-07-16, the DOT CIO and Senior Agency Official for Privacy
          (SAOP) has established an agency response team for privacy, and the required
          policy documents for Breach Notification, and Rules and Consequences are in
          review prior to issuance in Q1 of FY2009. Evaluation of options to protect
          privacy information on the Departmental network is planned to occur in Q1
          FY2009, with a recommendation to the DOT CIO and DOT CIO Council to occur
          early in Q2 FY2009.

      x   To strengthen its configuration management policy and implementation across the
          Department, the CIO has assigned a resource to provide oversight of the DOT
          FDCC initiative, including an evaluation and rebaseline of the current plan by the
          end of Q1 FY2009, and will issue updated policy, complete deployment of an
          automated compliance solution already in progress, and begin regular monthly
          and quarterly reporting and reviews of modal progress towards compliance by the
          end of Q1 FY2009.

      x   To strengthen its POAM management and quarterly compliance review process, a
          resource has already been assigned to elevate the Department’s verification and
          validation processes for information assurance and privacy, with a goal of
          improving the effectiveness of compliance reviews beginning the end of Q1
          FY2009. As part of the process improvement, monthly reporting and the
          quarterly compliance reviews will be revised to incorporate escalation of
          unremediated POAM’s or weaknesses to successively higher levels of DOT
          management with the goal of driving towards successful remediation or explicit
          acceptance of risk.

      x   Lastly, as a measure to reinforce accountability of leadership for the information
          assurance and privacy performance of their organizations, the CIO has already
          begun efforts to incorporate appropriate performance elements into the
          performance plans of modal CIO’s, and the accountability agreements of modal
          administrators. As part of that process, the CIO will solicit the input of OIG on
          the proposed metrics. For FY2009 it is expected that this will occur as a pilot
          effort, with a CIO objective of institutionalizing the performance elements
          beginning with the FY2010 evaluation cycle.

The OCIO office appreciates the working relationship developed during this audit and
looks forward to the OIG’s continued involvement during FY2009 with “Getting back to
Green” remediation efforts.

If you have any questions, please feel free to call me on 202-366-9201 or have a member
of your staff call Andrew Orndorff on 202-366-7111.


cc:       Rebecca Leng, JA-20
          Martin Gertel, M-1


Appendix. Management Comments
                                                                             38


The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
                                                                                  39




                         Information Security Program
                      Section 508 Compliance Presentation


Table 4. IT Security Weaknesses Overdue for Mitigation

The Surface Transportation Board (STB) has 67 total IT security weaknesses. Of
this total, all 67 are overdue or without a scheduled completion date. Specifically,
52 are more than one year overdue and 15 have no completion date.

The Saint Lawrence Seaway Development Corporation (SLSDC) has no IT
security weaknesses.

The Research and Innovative Technology Administration (RITA) has 59 total IT
security weaknesses. Of this total, all 59 are overdue or without a scheduled
completion date. Specifically, one is 91 to 120 days overdue; six are 121 days to
one year overdue; 18 are more than one year overdue and 34 have no completion
date.

The Pipeline and Hazardous Materials Safety Administration (PHMSA) has 128
total IT security weaknesses. Of this total, all 128 are overdue or without a
scheduled completion date. Specifically, 49 are 61 to 90 days overdue; 24 are 121
days to one year overdue; 27 are more than one year overdue and 28 have no
completion date.

The Office of the Secretary of Transportation (OST) has 53 total IT security
weaknesses. Of this total, 36 are overdue or without a scheduled completion date.
Specifically, one is 61 to 90 days overdue; 14 are 91to120 days overdue; three are
121 days to one year overdue; 17 are more than one year overdue and one has no
completion date.

The Office of the Inspector General (OIG) has 15 total IT security weaknesses. Of
this total, nine are overdue. Specifically, eight are 121 days to one year overdue
and one is more than one year overdue.

The National Highway Traffic Safety Administration (NHTSA) has seven total IT
security weaknesses. Of this total, six are overdue or without a scheduled
completion date. Specifically, four are more than one year overdue and two have
no completion date.

The Maritime Administration (MARAD) has 337 total IT security weaknesses. Of
this total, five are overdue or without a scheduled completion date. Specifically,
                                                                                  40


one is one to 60 days overdue; one is 61 to 90 days overdue; one is 91 to 120 days
overdue and two have no completion date.

The Federal Transit Administration (FTA) has 17 total IT security weaknesses. Of
this total, none are overdue or without a scheduled completion date.

The Federal Rails Administration (FRA) has 257 total IT security weaknesses. Of
this total, 181 are overdue or without a scheduled completion date. Specifically,
two are one to 60 days overdue; 30 are 91 to 120 days overdue; six are more than
one year overdue and 143 have no completion date.

The Federal Motor Carrier Safety Administration (FMCSA) has 28 total IT
security weaknesses. Of this total, 9 are overdue. Specifically, three are 61 to 90
days overdue and six are more than one year overdue.

The Federal Aviation Administration (FAA) has 3,049 total IT security
weaknesses. Of this total, 217 are overdue or without a scheduled completion
date. Specifically, seven are one to 60 days overdue; five are 61 to 90 days
overdue; four are 91 to 120 days overdue; two are 121 days to one year overdue;
seven are more than one year overdue and 192 have no completion date.

The Federal Highway Administration (FHWA) has 269 total IT security
weaknesses. Of this total, all 269 are overdue or without a scheduled completion
date. Specifically, two are 91 to 120 days overdue; 31 are 121 days to 1 year
overdue; 226 are more than one year overdue and ten have no completion date.

In total, the Department has 4,286 IT security weaknesses. Of this total, 986, or
23 percent, are overdue or without a scheduled completion date. Specifically, ten,
or .2 percent, are one to 60 days overdue; 59, or 1.4 percent, are 61 to 90 days
overdue; 52, or 1.2 percent, are 91 to 120 days overdue; 74, or 1.7 percent, are 121
days to one year overdue; 364, or 8.5 percent, are more than one year overdue and
427, or ten percent, have no completion date.
